No. 20A55
IN THE SUPREME COURT OF THE UNITED STATES
MARCI ANDINO, in her official capacity as the Executive
Director of the South Carolina Election Commission; JOHN
WELLS, in his official capacity as the chairman of the South
Carolina Election Commission; CLIFFORD J. EDLER and
SCOTT MOSELEY, in their official capacities as
commissioners of the South Carolina Election Commission;
JAMES H. LUCAS, JR., in his official capacity as the Speaker
of the South Carolina House of Representatives; HARVEY
PEELER, in his official capacity as President of the South
Carolina Senate; and SOUTH CAROLINA REPUBLICAN
PARTY,
Applicants,
v.
KYLON MIDDLETON, DEON TEDDER, AMOS WELLS,
CARLYLE DIXON, TONYA WINBUSH, ERNESTINE
MOORE, the SOUTH CAROLINA DEMOCRATIC PARTY,
DNC SERVICES CORPORATION/DEMOCRATIC
NATIONAL COMMITTEE, and DCCC,
Respondents.
To the Honorable John G. Roberts, Jr.,
Chief Justice of the United States and
Circuit Justice for the Fourth Circuit
CERTIFICATE OF SERVICE
I, Marc E. Elias, a member of the Supreme Court Bar, hereby certify that the
a copy of the forgoing Respondents’ Opposition to Emergency Application to Stay
Pending Appeal in the United States Court of Appeals for the Fourth Circuit was filed
by email with the Clerk’s Office of the Supreme Court of the United States, and was
served via email on the following parties listed below on this 3rd day of October, 2020:
William Grayson Lambert
Counsel of Record
Burr & Forman LLP
PO Box 11390
Columbia, SC 29211
glambert@burr.com

1

Counsel for Petitioners
Adriel I. Cepeda Derieux
Counsel of Record
American Civil Liberties Union Foundation
125 Broad Street
New York, NY 10004
ACepedaDerieux@aclu.org
Counsel for Mary Thomas, Nea Richard, The Family Unit, Inc., and South Carolina
State Conference of the NAACP
Loren L. AliKhan
Counsel of Record
D.C. Office of the Attorney General
Solicitor General
400 6th Street, NW, Suite 8100
Washington, DC 20001
loren.alikhan@dc.gov
Counsel for the District of Columbia

s/ Marc E. Elias______________
Marc E. Elias
Counsel of Record
PERKINS COIE LLP
700 13th Street, NW
Suite 800
Washington, DC 20005
(202) 654-6200
MElias@perkinscoie.com

2

